Jack Jordan
6225 Northlake Drive
Parkville, MO 64152
816-746-1955
jack.jordan@emobilawyer.com
September 25, 2020
SUPREME COURT OF THE UNITED STATES
Attn: Clerk of Court
1 First Street, N. E.
Washington, DC 20543
No. 20-_______
JACK JORDAN,
Petitioner
v.
UNITED STATES DEPARTMENT OF LABOR,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that that the PETITION FOR WRIT OF
CERTIORARI in the above titled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in Century 12 point for the text and 10 point for the footnotes, and this
Petition contains 8,993 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Jack Jordan
No. 301802
6225 Northlake Drive
Parkville, Missouri 64152
jack.jordan@emobilawyer.com
(816) 746-1955

1

